Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




THE MEDICARE CONTRACTOR’S
 PAYMENTS IN JURISDICTION 3
FOR FULL VIALS OF HERCEPTIN
   WERE OFTEN INCORRECT


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      November 2012
                                                      A-07-12-04186
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body. Herceptin comes in a multiuse vial of 440 milligrams.
A multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. The manufacturer supplies the drug in a carton containing a multiuse vial of 440
milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection (BWFI)
containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of Herceptin, when
reconstituted with BWFI and stored properly, can be used for up to 28 days.

For multiuse vials, Medicare pays only for the amount administered to a beneficiary and does not
pay for any discarded drug. Therefore, a payment for an entire multiuse vial is likely to be
incorrect. This audit is part of a nationwide review of the drug Herceptin. The pilot of these
reviews found that the Medicare contractor’s payments for full vials of Herceptin were often
incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Effective July 2006, Noridian Administrative Services, LLC (Noridian), became the Medicare
contractor in Arizona, Montana, North Dakota, South Dakota, Utah, and Wyoming. During our
audit period (January 1, 2008, through December 31, 2010), 4,142 line items for Herceptin
totaling approximately $7.0 million were processed in these States. Of these 4,142 line items,
634 line items totaling approximately $1.5 million had 44 or 88 units of service that represented
billings that were equivalent to entire multiuse vials. In this audit, we did not review entire
claims; rather, we reviewed the specific line items within the claims that met these criteria.

OBJECTIVE

Our objective was to determine whether Medicare payments that Noridian made to providers in
Jurisdiction 3 for full vials of Herceptin were correct.

SUMMARY OF FINDINGS

Most payments that the Medicare contractor made to providers in Jurisdiction 3 for one or two
full vials of Herceptin were incorrect. Of the 634 selected line items, 399 (63 percent) were
incorrect and included overpayments totaling $404,746, which the providers had not refunded by
the beginning of the audit. A provider refunded overpayments on one line item totaling $1,124
before our fieldwork. The remaining 234 line items were correct.

For the 399 incorrect line items that had not been refunded, providers:

   •   reported incorrect units of service on 397 line items, resulting in overpayments totaling
       $397,830 and


                                                 i
   •   did not provide supporting documentation for two line items, resulting in overpayments
       totaling $6,916.

On each of the 399 incorrect line items, the providers reported the units of service for the entire
content of 1 or 2 vial(s), each containing 440 milligrams of Herceptin, rather than reporting the
units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. Noridian made these incorrect payments because neither the Fiscal
Intermediary Standard System nor CMS’s Common Working File had sufficient edits in place
during our audit period to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that Noridian:

   •   recover the $404,746 in identified overpayments,

   •   implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

   •   use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take.

Our draft report included a recommendation that Noridian determine the amount of overpayment
amounts for two incorrect line items that, at the time of issuance of our draft report, had not been
determined. In comments on this recommendation, Noridian stated that the overpayment
amounts for the two line items had been determined and an additional $383 had been recovered.

Noridian’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

For this final report, we revised the findings and first recommendation to reflect the additional
line items adjusted and amounts recovered. We also removed the recommendation related to the
two incorrect line items that had been in our draft report because the overpayments have been
determined.




                                                  ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors ...................................................................................................... 1
        Claims for Drugs ............................................................................................................. 1
        Herceptin .........................................................................................................................2
        Noridian Administrative Services, LLC ......................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope ............................................................................................................................... 2
        Methodology ...................................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED ....................... 4
        Incorrect Number of Units of Service ............................................................................. 4
        Unsupported Services ..................................................................................................... 5

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 5

      RECOMMENDATIONS ...................................................................................................... 5

      NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS ................................. 5

      OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................... 6

OTHER MATTER...................................................................................................................... 6

APPENDIX

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                      iii
                                                INTRODUCTION

BACKGROUND

Herceptin 1 is a Medicare-covered drug used to treat breast cancer that has spread to other parts of
the body. Herceptin comes in a multiuse vial of 440 milligrams. A multiuse vial contains more
than one dose of medication and is labeled as such by the manufacturer. However, for multiuse
vials, Medicare pays only for the amount administered to a beneficiary and does not pay for any
discarded amounts. This audit is part of a nationwide review of the drug Herceptin. The pilot of
these reviews 2 found that the Medicare contractor’s payments for full vials of Herceptin were
often incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 3 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ claims for outpatient services, the
Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Drugs

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description. 4 Multiuse vials are not subject to payment for discarded amounts of the drug.


1
    Herceptin is Genentech’s registered trademark for the drug trastuzumab.
2
    Report number A-05-10-00091, issued July 10, 2012.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
4
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                           1
Multiuse vials are typically used for more than one date of service and can be stored for up to 28
days. Therefore, a payment for an entire multiuse vial is likely to be incorrect.

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of 440
milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection (BWFI)
containing a solution of 1.1 percent of benzyl alcohol as a preservative. A vial of Herceptin,
when reconstituted with BWFI and stored properly, can be used for up to 28 days. When a
patient is allergic to benzyl alcohol, sterile water without a preservative should be used and any
unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with a
narrative description of “injection, trastuzumab 10mg.” An entire multiuse vial of 440
milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.

Noridian Administrative Services, LLC

Effective July 2006, Noridian Administrative Services, LLC (Noridian), became the Medicare
contractor in Arizona, Montana, North Dakota, South Dakota, Utah, and Wyoming. During our
audit period (January 1, 2008, through December 31, 2010), 4,142 line items for Herceptin were
processed in these States.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments that Noridian made to providers in
Jurisdiction 3 for full vials of Herceptin were correct.

Scope

During our audit period, Noridian processed 4,142 outpatient Part B service line items of
Herceptin totaling approximately $7.0 million. Of these 4,142 line items, 634 line items totaling
approximately $1.5 million had 44 or 88 units of service that represented billings that were
equivalent to entire multiuse vials.

We limited our review of Noridian’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

Our fieldwork was conducted from October 2011 through August 2012 and included contacting
Noridian in Fargo, North Dakota, and the 29 providers in Arizona, Montana, North Dakota,
South Dakota, Utah, and Wyoming that received the selected Medicare payments.



                                                 2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify outpatient line items in which
       payments were made for HCPCS code J9355 (Herceptin);

   •   identified 634 line items that Noridian paid to 29 providers;

   •   contacted the 29 providers that received Medicare payments associated with the selected
       line items to determine whether the information conveyed in the selected line items was
       correct and, if not, why the information was incorrect;

   •   reviewed documentation that the providers furnished to verify whether each selected line
       item was billed correctly; specifically, we reviewed documentation to support:

           o the medical condition of the beneficiary in determining the necessity of the
             medication,

           o a physician’s orders for medication,

           o that the medication was administered, and

           o the type of solution used to reconstitute the Herceptin (BWFI containing
             1.1 percent benzyl alcohol or sterile water);

   •   coordinated the calculation of overpayments with Noridian; and

   •   discussed the results of our review with Noridian officials on September 6, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Most payments that the Medicare contractor made to providers in Jurisdiction 3 for one or two
full vials of Herceptin were incorrect. Of the 634 selected line items, 399 (63 percent) were
incorrect and included overpayments totaling $404,746, which the providers had not refunded by
the beginning of the audit. A provider refunded overpayments on one line item totaling $1,124
before our fieldwork. The remaining 234 line items were correct.



                                                3
For the 399 incorrect line items that had not been refunded, providers:

   •   reported incorrect units of service on 397 line items, resulting in overpayments totaling
       $397,830 and

   •   did not provide supporting documentation for two line items, resulting in overpayments
       totaling $6,916.

On each of the 399 incorrect line items, the providers reported the units of service for the entire
content of 1 or 2 vial(s), each containing 440 milligrams of Herceptin, rather than reporting the
units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. Noridian made these incorrect payments because neither the Fiscal
Intermediary Standard System nor CMS’s Common Working File had sufficient edits in place
during our audit period to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “[P]roviders must use HCPCS codes … for most outpatient services.”
According to chapter 17, section 70, of the Manual, when a provider is billing for a drug
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg. [milligrams], and
200 mg are provided, units are shown as 4 ….”

Chapter 17, section 40, of the Manual also states: “Multi-use vials are not subject to payment for
discarded amounts of drug ….” Finally, chapter 1, section 80.3.2.2, of the Manual states: “In
order to be processed correctly and promptly, a bill must be completed accurately.”

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Incorrect Number of Units of Service

Providers reported incorrect units of service on 397 of the 634 line items reviewed, resulting in
overpayments totaling $397,830 of the $1.5 million total dollars reviewed. Providers billed
Medicare for the entire vial containing 440 milligrams of Herceptin, rather than billing only for
the amount actually administered.

For example, one provider administered between 150 milligrams and 304 milligrams of
Herceptin to a patient and billed for 44 units of service (440 milligrams). Based on the HCPCS
description of Herceptin (injection, trastuzumab, 10 milligrams), the number of units to be


                                                 4
reported for 150 milligrams is 15 and the number of units to be reported for 304 milligrams is
31. 5 This error occurred on 50 separate occasions for 1 patient; as a result, Noridian paid the
provider $126,113 when it should have paid $46,821, an overpayment of $79,292.

Unsupported Services

Two providers billed Medicare for two line items for which the providers did not provide
supporting documentation. The providers agreed to cancel the claims associated with these line
items and refund the combined $6,916 in overpayments that they received.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors and to billing systems that
could not prevent or detect the incorrect billing of units of service. Noridian made these
incorrect payments because neither the Fiscal Intermediary Standard System nor the CWF had
sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied on
beneficiaries to review their Medicare Summary Notice 6 and disclose any overpayments.

RECOMMENDATIONS

We recommend that Noridian:

    •    recover the $404,746 in identified overpayments,

    •    implement or update system edits that identify for review multiuse-vial drugs that are
         billed with units of service equivalent to the dosage of an entire vial(s), and

    •    use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take.

Our draft report included a recommendation that Noridian determine the amount of overpayment
amounts for two incorrect line items that, at the time of issuance of our draft report, had not been
determined. In comments on this recommendation, Noridian stated that the overpayment
amounts for the two line items had been determined and an additional $383 had been recovered.


5
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor to report the dose.

6
  The Medicare contractor sends a Medicare Summary Notice— an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.



                                                          5
Noridian’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

For this final report, we revised the findings and first recommendation to reflect the additional
line items adjusted and amounts recovered. We also removed the recommendation related to the
two incorrect line items that had been in our draft report because the overpayments have been
determined.

                                             OTHER MATTER

During our review of payments made to providers for full vials of Herceptin, we found that the
prescribing physicians for one provider, Campbell County Medical Center (Campbell County),
located in Gillette, Wyoming, incorrectly prescribed and administered the drug Herceptin.
Campbell County routinely prescribed and administered for an entire vial of the drug and did not
follow the dosing guidelines published by the manufacturer, which state that the drug should be
administered based on the patient’s weight. Of the 144 line items that we reviewed for Campbell
County, 133 line items were incorrectly prescribed and administered. 7

Campbell County did not agree the line items were incorrectly prescribed and administered.
Specifically, Campbell County stated that Herceptin was available as a 440-milligram single-
dose vial and was not aware that it was a multi-use vial. Campbell County also stated that a 440-
milligram dose, administered 3 times per month, resulted in the full benefit of the drug without
increased toxicity in the patient.

In light of Campbell County’s assertions, we consulted with the U.S. Department of Health and
Human Services (HHS), Office of Inspector General’s Chief Medical Officer, who performed a
medical review of a sample of these claims and provided the following assessment. First, while
there may be some scientific support for deviating, either up or down, from the doses
recommended in the HHS, Food and Drug Administration-approved prescribing information, the
administration of an entire vial of Herceptin is not attributed to an accepted rational dosing
methodology that physicians follow. Second, there is no support for a default 440-milligram
dose for all patients regardless of weight. Based on compendia, the potential of adverse effects
of over- or underdosing is not clearly indicated, and adequate clinical studies have not been
completed to support the potential of adverse effects based on dosage alone.

The current dosing methodology used by Campbell County resulted in six patients receiving,
over the course of their treatment, a total of 1,030 milligrams (103 units) more than what they
would have received if the provider had followed the Herceptin manufacturer’s dosing
guidelines. 8 Consequently, we are concerned with the quality of care that these patients
7
 Specifically, 56 line items involved underdosages and 77 line items involved overdosages, based on the patients’
weights as recorded in their medical files.
8
  Of the 56 line items involving underdosing, the patients received a total of 2,960 mg (296 units) less Herceptin
than the amounts recommended in the manufacturer’s dosing guidelines. Of the 77 line items involving overdosing,
the patients received a total of 3,990 mg (399 units) more Herceptin than the amounts recommended in the
manufacturer’s dosing guidelines.


                                                         6
received. In terms of the language in the Medicare Benefit Policy Manual, chapter 15, section
50.4.3 (3), it appears that the physicians’ methods for ordering dosages of Herceptin “… exceed
the frequency or duration of injections indicated by accepted standards of medical practice ….”

We are providing this information as Noridian may want to use this information to study this
matter further and use in its provider training program.




                                               7
APPENDIX
                                                                                                                      Page 1 of 2


APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




   NOR/DIAN®                                                                                      Medicare
   Administrative Services LLC


             October 22, 2012

             Patrick J. Cogley
             Regional Inspector General for Audit Services
             Office of Inspector General
             Region VII
             601 East 12th Street, Room 0429
             Kansas City, MO 64106

             RE: Report Number A-07-1 2-04186

             Dear Mr. Cogley:

             Thank you for the opportunity to respond to the draft report of the U.S. Department of Health &
             Human Services, Office of Inspector General (OIG) dated September 24, 2012, entitled, The
             Medicare Contractor's Payments in Jurisdiction 3 for Full Vials ofHerceptin Were Often
             Incorrect. We concur with the recommendations made by the OIG. NAS has provided our
             responses to the recommendations within the contents of this letter. The course of action that
             NAS has planned will be an ongoing effort due to the extent of activities planned and the time
             associated with the research, development, testing, and implementation of certain initiatives.

             NAS researched the claim information and details provided by the OIG and have identified
             several courses of action NAS will perform to assist in reducing future overpayments. The
             CPT/HCPC code, J9355 identified in this audit, is now included on the non-published Medical
             Unlikely Edits (MUE) listing and has a unit of service limit as of April I, 2011. MUEs are edits
             in the standard Part A system, FISS, and should assist in minimizing unit of service overpayments
             in the future.

             It is important to note that future overpayments may still be possible because Medicare
             contractors are not funded to perform 100% complex review of claims. Without a comparison of
             medical records and coding on I 00% of claims billed, there will always be the potential for
             overpayments (and underpayments) resulting from billing incorrect procedure codes, units of
             service, and other claims payment indicators. NAS will do our due diligence to avoid
             overpayments within the scope of our contracts, authorization, and experience. An important tool
             or step in this process that NAS has considered is to make referrals to the Program Safeguard
             Contractor (PSC), Recovery Audit Contractors (RAC), and CMS as a method of business
             collaboration.

             OIG RECOMMENDATIONS:

                 •   Recover the $404,363 in identified overpayments
                           NAS Response: NAS concurs with the recommendation that all overpayments
                           identified are to be collected. As stated in the draft report, providers refunded one
                           line item totaling $1 ,124 before fieldwork began. There were 399line item
                           overpayments remaining to be collected.



                                                                                                        CAliS/
  29312096                             A CMS Contracted Medicare Administrative Contractor                         (3203)3.00
                                                                                                       Page 2 of 2





                On each of the 399 incorrect line items, the providers reported the units of
                service for the entire contents of one or more vials, each containing 440
                milligrams of Herceptin, rather than reporting the units of service for the amount
                actually administered.

                On Thursday, November 10, 2011 , NAS received the detailed claims
                listing/findings from the OIG. As of August 30, 2012, NAS had collected
                $404,363 for 397 line items and $383 for two line items was uncollected.

    •   Determine the amount of overpayments for the two incorrect line item payments
        and recover that amount
                NAS Response: NAS concurs with the recommendation that the two remaining
                line items are to be collected. NAS determined that the amount of the
                overpayments on the two outstanding claim lines was $383. NAS collected this
                remaining overpayment amount on September 14,2012.

    •   Implement or update system edits that identify for review multiuse-vial drugs that
        are billed with units of service equivalent to the dosage of an entire vial(s)
                NAS Response: · NAS concurs with this recommendation. A national Medically
                Unlikely Edit (MUE) for Herceptin was implemented by CMS on April 1, 2011.
                NAS continues to work with CMS, FISS, and the MUE Advisory Committee to
                refine MUE unit of service limits that may, in some cases, be set too high.

    •   Use the results of this audit in its provider education activities
                NAS Response: NAS completed the following provider education activities:

                     •   A provider education article was distributed via the listserv and posted to
                         the NAS Medicare Website on June 28, 2012, to educate providers on the
                         proper way to bill units of Herceptin. This article was also published in
                         NAS' Medicare A News bulletin on August 22, 2012 which is also
                         available on NAS' Medicare A Website.
                     •   The provider education article was revised to clarify that a multiuse vial
                         can be used for more than one patient when reconstituted and stored
                         properly. The article was published on the NAS Medicare Website on
                         October 18, 2012.

Please advise if additional information or further clarification is needed on any of our response.
Please contact Paul O'Donnell, Medicare Operations Vice President, at (701) 277-2401, or
through e-mail at Paul.ODonnell@noridian.com.


Sincerely,


P~~
·Paul O'Donnell
 Vice President
 Noridian Administrative Services, LLC
